                                    August 20, 2004




MEMORANDUM TO:             Luis A. Reyes
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum/RA/
                           Assistant Inspector General for Audits


SUBJECT:                   MEMORANDUM REPORT: CONTROLS TO
                           PREVENT UNAUTHORIZED ENTRY INTO THE
                           NRC PARKING GARAGE (OIG-04-A-17)


SUMMARY

The Office of the Inspector General (OIG) conducted a limited scope review to
assess U.S. Nuclear Regulatory Commission (NRC) controls for preventing and
mitigating unauthorized vehicle entries into the NRC headquarters parking
garage. OIG initiated this inquiry in response to an incident that occurred on
April 28, 2004, when a disoriented woman who had no official business with NRC
drove into the One White Flint North parking garage without stopping at the
guard booth. Approximately 15 minutes after entering the garage, the woman
walked out of the garage at the Two White Flint North exit, where she was
stopped and questioned by an NRC guard who was unaware that the security
breach had occurred.

NRC determined that the security guard response to this incident was
unsatisfactory, deducted $400 from the security guard contractor invoice for April
because of the poor response, and requested an action plan from the contractor
to improve future performance. The contractor responded by providing remedial
training for its NRC guard force. In addition, the Director, Division of Facilities
and Security, instructed Security Branch staff to develop specific guidance for
security officers on how to respond to unauthorized access situations.
                             Controls to Prevent Unauthorized Entry into the NRC Parking Garage



OIG found that although NRC responded quickly to address the poor
performance demonstrated by the guard force on April 28, the agency should
implement emergency drill training requirements contained in the security guard
contract and clarify security guard orders to ensure a better security guard
response in the future.

DESCRIPTION OF INCIDENT

On April 28, 2004, at approximately 5:40 a.m., a disoriented woman who had no
official business with NRC drove past the guard posted at the One White Flint
North driveway booth and into the garage without stopping. The guard
immediately notified the shift supervisor, via telephone, that an NRC “employee”
had entered the garage without stopping. The supervisor subsequently made a
brief, limited in scope, unsuccessful attempt to locate the driver and then
returned to his office to obtain more information. However, instead of continuing
his search, the supervisor issued weapons to officers reporting for duty without
making any notification to the guard force about the situation at hand. The
woman spent about 15 minutes walking around the garage before being detained
by a guard at the Two White Flint North garage exit post who thought the woman
appeared suspicious. At the time the guard stopped her, the woman, who was
not wearing shoes, had just walked out of the Two White Flint North garage.
During this entire time period, officers were not notified that the breach had
occurred and no organized search for the vehicle or driver was conducted.
Furthermore, the woman was not searched before she was brought back inside
the building for further questioning. The woman’s vehicle, which was
subsequently impounded by Montgomery County Police, was found on the P-1
level of the Two White Flint North garage and a coat she dropped while
wandering in the garage was found on the Two White Flint North P-2 ramp.
According to a Division of Facilities and Security staff member, a switchblade
knife was found in the woman’s vehicle.

NRC AND WACKENHUT RESPONSE TO INCIDENT

Both NRC and Wackenhut Services, Inc., NRC’s contractor for guard services,
agreed that the guard force response to the incident was unsatisfactory. In a
May 5, 2004, letter to Wackenhut, NRC faulted the shift supervisor for failing to
alert the guards on duty that there was an intruder in the building and found it
unacceptable that an effective search for the intruder was not immediately
conducted. NRC also criticized the fact that the woman was not properly
searched before being brought back into the building for questioning. NRC
deducted $400 from Wackenhut’s April 2004 invoice because of the contractor’s
poor performance and requested that Wackenhut provide a written plan of action
to improve future performance. In response, on May 10, Wackenhut provided
onsite remedial training for its NRC guard force on the use of deadly force,
emergency communications, alert procedures, response timeliness, supervisor
responsibilities in general, and other topics.



                                           2
                             Controls to Prevent Unauthorized Entry into the NRC Parking Garage




According to the Wackenhut project manager for the NRC contract and Division
of Facilities and Security staff, an underlying cause of Wackenhut’s poor
response was the mischaracterization of the intruder as an NRC “employee.”
The supervisor failed to question this characterization and responded to the
incident as if it were not an emergency. Another problem, according to the
project manager, was the driveway booth guard’s failure to use his radio to notify
the supervisor about the incident. Had the guard used his radio, the project
manager said, all officers on duty at the time would have been alerted about the
situation. The project manager said using one’s radio to make the call to the
supervisor is a commonsense response that ought to be automatic.

OIG notes that an appropriate response to this situation would also include the
use of a duress alarm that immediately notifies all posts that a potentially
dangerous situation is underway. Because NRC’s duress alarms do not have
this capability – they notify only the Central Alarm Station of imminent danger –
NRC guards must use their radios to perform this type of general notification.

In an effort to further ensure that guards understand what NRC expects of them
in an emergency, the Division of Facilities and Security Director has directed
Security Branch staff to develop more specific guidance for guards on how to
respond to access control incidents. While Division of Facilities and Security
staff cautioned OIG that responses cannot be prescribed for every emergency
scenario, they acknowledged that fundamental expectations ought to be
documented.

ACCESS CONTROL EMERGENCY DRILLS ARE NOT PART OF GUARD
TRAINING REQUIREMENTS

Although Wackenhut responded promptly to NRC’s request for a plan of action to
improve future performance, neither the remedial training that was provided nor
the annual contract guard training requirements included the conduct of access
control emergency response drills. Such drills would allow guards to practice
access control procedures in response to incidents similar to that which occurred
on April 28. Such practice would help ensure that officers have practiced the
skills required to respond to emergencies and that they are better prepared to act
quickly and appropriately if a similar situation occurs in the future.

NRC’s contract with Wackenhut requires guards to receive basic training, in-
service training, and annual recertification training. One specific requirement
pertains to emergency response capability and requires NRC to conduct periodic
testing to ensure an acceptable level of training by security personnel for
response to emergencies. However, NRC has not conducted access control
emergency drills as part of this testing requirement. Furthermore, the remedial
training provided by Wackenhut in response to the April 28 incident did not
include any access control emergency drill training. According to the Division of



                                          3
                                    Controls to Prevent Unauthorized Entry into the NRC Parking Garage



Facilities and Security Director, while no access control emergency drill training
has been conducted, the guards have participated in bomb emergency drills
which call for a similar response to that required in an access control emergency.

According to the Wackenhut project manager for the NRC contract, it is easy for
guards to become desensitized to the emergency nature of their jobs because so
few incidents necessitating an emergency response occur. To help counter this
tendency, the project manager said he rotates guards in and out of various posts
and reminds them verbally of the importance of taking all situations seriously.
Furthermore, he said, officers practice access control every day on the job.

OIG contends that access control drills should be an integral part of annual
officer training. Although the guards practice access control on a routine basis,
the rare occurrence of emergency situations does not provide the opportunity to
practice the quick thinking and aggressive response required in these situations.
Furthermore, while the remedial training provided by Wackenhut is likely to
ensure that guards take all incidents seriously in the short term, there is no
assurance that such heightened awareness will be sustained over the long term.
Drilling annually on how to respond to access control emergencies will routinely
remind guards of the need to treat all security breaches as potentially serious,
ensuring an appropriate response to such situations.

Recommendation

OIG recommends that the Executive Director for Operations:

    1. Require the conduct of at least one annual access control emergency drill
       as part of security guard training requirements.

GUARD ORDERS DO NOT DESCRIBE EXPECTED RESPONSE

NRC has specific post and general orders1 addressing garage access control.
However, these written procedures are not specific enough to ensure that guards
have a clear understanding of how to proceed in an emergency.

NRC’s post and general orders contain guidance intended to prevent
unauthorized individuals and vehicles from entering the garage and appropriately
handle such an entry should one occur. NRC General Order 10, Access Control,
informs security officers of the policy and procedures for access control to ensure
that only authorized personnel are admitted to controlled areas. NRC Post Order
7 describes access control duties at the perimeter driveway guard booth during



1
  NRC post orders are permanent directives designed to provide procedures for the operation of each
individual guard post. These directives augment and supplement NRC general orders, which are permanent
directives designed to standardize day-to-day procedures at all NRC facilities.



                                                  4
                              Controls to Prevent Unauthorized Entry into the NRC Parking Garage



specific hours of the day and night and is augmented by an attachment titled,
“Standard Operating Procedures for Perimeter Driveway Guard Booth.” This
latter document includes information on when to lower and raise the traffic arm
located at that post and the roll-up garage doors.

OIG’s review of these specific procedures revealed that the procedures do not:

Clearly state “commonsense” expectations on how to proceed in an
emergency. Division of Facilities and Security staff and the Wackenhut project
manager expressed various “commonsense” principles that they said officers
should have known to employ during the April 28 incident. For example, the
project manager stated that the officer should have used his radio – not the
telephone – to notify the shift supervisor that the incident had occurred. The
project manager said this was a basic principle in responding to an emergency
because it facilitates notification of all guards that an incident is underway. Yet,
the requirement to use the radio to alert officers of an unauthorized vehicle entry
is not specifically written in NRC’s post or general orders. A Division of Facilities
and Security staff member further explained that a duress alarm located in the
driveway guard booth is to be used to notify the Central Alarm Station in
situations of imminent danger. Guidance on when to use the duress alarm –
versus the telephone or radio – also is not specified in the orders.

Describe a response that matches NRC’s expectations on how to proceed
in an emergency. According to Division of Facilities and Security staff, a
reasonable response in the April 28 situation would have been immediately to
stop traffic from entering or exiting the garage until the vehicle and driver could
be located. However, there are no specific procedures in General Order 10,
Access Control, or Post Order 7 (perimeter driveway guard booth) instructing
officers when such a technique is advisable. As another example, General Order
10 instructs guards who encounter individuals in the building who are
unauthorized to be there to escort them from NRC space. While the order
specifies that the person should be asked to leave “in a firm and polite manner,”
no mention is made of the need to detain the person in order to ascertain how
and why the person entered the space. According to the Wackenhut project
manager and NRC staff, such questioning would be necessary in order to assess
whether the person intended to cause harm and to determine what weakness
allowed the person to gain access in the first place.

Recommendation

OIG recommends that the Executive Director for Operations:

       2. Update general and post orders related to access control so that the
          guidance clearly conveys NRC expectations for guard response as
          well as “commonsense” expectations concerning emergency response.




                                           5
                                          Controls to Prevent Unauthorized Entry into the NRC Parking Garage



CONCLUSION

The April 28 security breach fortunately occurred without malice in that the
intruder entered the garage because she was disoriented and apparently not to
cause harm to NRC facilities or employees. However, it illustrates the
vulnerability posed by the existing driveway configuration, which does not include
active vehicle barriers. According to Division of Facilities and Security staff, an
intruder currently can gain easy entry into the garage any time the garage door is
open and there is virtually nothing in place to prevent this. Ultimately, NRC
expects to mitigate this vulnerability by reconfiguring the driveway access to the
garage through Lot 4.2 Even when the driveway reconfiguration is complete,
however, NRC must employ the best possible measures to prevent intrusions
and respond appropriately if one occurs.

AGENCY COMMENTS

During an exit conference held August 3, 2004, agency managers generally
agreed with the report findings and recommendations, and offered clarifications
concerning NRC’s security guard contract requirements and a suggestion
concerning the wording of Recommendation 1. This information was
incorporated into the report, as appropriate. The agency reviewed these
modifications and did not provide subsequent comments to the report.

Consolidated List of Recommendations

       1. Require the conduct of at least one annual access control emergency drill
          as part of security guard training requirements.

       2. Update general and post orders related to access control so that the
          guidance clearly conveys NRC expectations for guard response as well as
          “commonsense” expectations concerning emergency response.

SCOPE AND METHODOLOGY

To accomplish this limited scope review assessing NRC’s controls to prevent
unauthorized entry into the agency’s headquarters garage, auditors reviewed
relevant criteria such as the General Services Administration Contract Guard
Information Manual; NRC Security Officer’s Book, which contains general and
post orders; “Standard Operating Procedures for Perimeter Driveway Guard
Booth,” attachment to Post Order 7; and the Wackenhut Statement of Work for
Security Guard Services. Auditors also reviewed security incident reports
describing the April 28 incident and NRC’s letter to Wackenhut subsequent to the
incident. Auditors interviewed Division of Facilities and Security staff and the
Wackenhut project manager to better understand the events that transpired
during the April 28 security breach and the agency’s and contractor’s responses.
2
    Lot 4 is the vacant lot behind One White Flint North acquired last year for this purpose.



                                                         6
                             Controls to Prevent Unauthorized Entry into the NRC Parking Garage




This work was conducted from June 3 to June 29, 2004, in accordance with
generally accepted Government auditing standards. The work was conducted by
Beth Serepca, Team Leader; Judy Gordon, Senior Management Analyst; and
Elizabeth Bowlin, Auditor.

Please provide information on the actions taken in response to the
recommendations directed to your office by September 20, 2007. Actions taken
or planned are subject to OIG followup. See Attachment for instructions for
responding to OIG report recommendations.

If you have any questions or concerns regarding this report, please contact me at
415-5915 or Beth Serepca at 415-5911.

cc:   Chairman Diaz
      Commissioner McGaffigan
      Commissioner Merrifield




                                          7
                            Controls to Prevent Unauthorized Entry into the NRC Parking Garage



Distribution List

B. John Garrick, Chairman, Advisory Committee on Nuclear Waste
Mario V. Bonaca, Chairman, Advisory Committee on Reactor Safeguards
John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
Dennis K. Rathbun, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Patricia G. Norry, Deputy Executive Director for Management Services, OEDO
William F. Kane, Deputy Executive Director for Homeland Protection
  and Preparedness, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research
  and State Programs, OEDO
Ellis W. Merschoff, Deputy Executive Director for Reactor Programs, OEDO
William M. Dean, Assistant for Operations, OEDO
Jacqueline E. Silber, Chief Information Officer
Michael L. Springer, Director, Office of Administration
Frank J. Congel, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Paul E. Bird, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
Office of Public Affairs, Region I
Office of Public Affairs, Region II
Office of Public Affairs, Region III
Office of Public Affairs, Region IV




                                         8
